           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE MEASURE REVIEW:

       RELIABILITY OF THE DATA

           USED TO REPORT

      800-NUMBER PERFORMANCE



  September 2001   A-02-00-10019




 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                    .".\. SECu
                                                   Ou~
                                                   W/'US~~
                                                   \     1II1II1
                                                              ~~
                                                       """IST1\.t'

                                         SOOAL          SECURITY
                                         Office of the Inspector General
MEMORAN~W             1 8    2001
Date:                                                                          Refer To:

           Larry G. Massanari
To:
           Acting Commissioner
            of Social Security

From:      Inspector General

           Performance Measure Review: Reliability of the Data Used to Report 800-Number
           Performance (A-02-00-10019)
Subject:



           The Government Performance and Results Act (GPRA) of 19931 requires the Social
           Security Administration (SSA) to develop performance indicators that assess the
           relevant service levels and outcomes of each program activity .GPRA also requires
           disclosure of the processes used to verify and validate the measured values used to
           report on program performance. SSA is committed to ensuring the importance of
           verifying and validating performance measures, and the Office of the Inspector General
           audits of the performance measures are a means to achieve this. The objective of this
           audit was to determine the reliability of the data used by SSA in Fiscal Year (FY) 1999
           for the following GPRA performance indicators and to assess how the indicators will
           assist SSA to achieve world class service:

                                                                           FY 1999 Performance

           Percent of callers who successfully
           access the BOO-number within
           5 minutes of their first call               95.0 percent              95.8 percent

           Percent of callers who get through to
           the 800-number on their first attempt       90.0 percent              92.9 percent

           800-number telephone calls handled          55.5 million              58.8 million

           The within "5-minute" access measures the number of call attempts from a specified
           telephone number, referred to as individual callers, that select either the automated or
           live agent option. This does not jnclude callers who reach the 800-number but
           terminate the call prior to making a selection.

           The "first attempt" measure refers to the number of call attempts that reach either the
           automated or live agent option on the first attempted call of the day, or any subsequent
           attempt after a previously successful call.

           1 Public   Law   No.103-62.
The “calls handled” measure refers to the number of call attempts that select either the
automated menu or live agent option and complete their business prior to terminating
the call. This does not include callers who reach the 800-number but terminate the call
either prior to selecting an option or after waiting in queue for an agent.

BACKGROUND
SSA implemented a national toll-free 800-number telephone service (1-800-SSA-1213)
in 1989 as an alternative to field office contact for customers to use when conducting
basic Social Security business. Today, there are 3,000 teleservice representatives, also
known as live agents, who staff the 800-number system, which is comprised of
37 teleservice centers (TSC). In FY 1999, the 800-number received over 78 million
calls, with an average of 1.5 million calls per week.

After accessing the 800-number, callers are prompted to select an option, in English or
Spanish and to either select from an automated menu or to select to speak with a live
agent. The live agent option is available on business days between the hours of 7 AM
and 7 PM local time, and automated service is available daily 24 hours a day. Callers
using the automated service encounter multiple menus. During FY 1999, approximately
70 percent of the callers chose to speak with a live agent, while 30 percent chose the
automated menu.

A call to the 800-number is routed from the caller’s local network to the AT&T network,2
that then delivers it to SSA's 800-number network. If a caller selects the live agent
option, the call is routed to one of SSA’s 22 Automatic Call Distributors (ACDs). The
ACDs operate like computerized switchboards to steer and deliver incoming calls
among the 37 TSCs, depending on the day of the week, time of day, and distribution of
call volume among the various TSCs. When a live agent is not available to take the call
at a TSC, the ACD puts the call in queue.

RESULTS OF REVIEW

While we replicated the "5-minute" and "first attempt" access rates, we cannot opine on
their reliability because limitations in the source data do not allow us to determine
whether SSA is measuring the performance it intends. Specifically, the data does not
identify all individual callers, which is how SSA measures the access rates. While we
replicated the “calls handled” measure, we found errors in the measurement process
that could affect its reliability. We found SSA lacks formal documentation of the
processes used to collect, analyze, and report performance information. Further, we
found weaknesses in the access controls applicable to processing and maintaining the
800-number performance measures. We also believe that the definitions used for the


2
 AT&T was the contract carrier for all 800-number service through March 2000. In April 2000, SSA
began a conversion to MCI as the carrier.


                                                  2
800-number performance measures tend to emphasize access, as opposed to service,
which would better address SSA’s goal to achieve world class service.

DATA LIMITATIONS HAVE AN UNKNOWN EFFECT UPON 800-
NUMBER ACCESS MEASURES
SSA relies upon the Automatic Number Identification (ANI) file, which is the detailed
daily record of all calls made to SSA’s 800-number provided by AT&T, to calculate the
"5-minute" and "first attempt" access performance measures. As shown in Appendix D,
SSA receives this file daily, and applies daily and monthly data processing applications
to develop the access rate measures. Separate systems subsequently capture and
report data on calls handled in the automated and live agent options.

The Office of Information Management (OIM) receives the AT&T ANI file of raw
telephone call data, and forwards a copy to the Office of Telecommunications and
Systems Operations (OTSO). OTSO performs daily and monthly data processing
routines to produce the performance measurements. In its daily operations, OTSO
edits out two types of call records: (1) calls that hang up after reaching SSA’s
800-number up-front network prompt and (2) calls from non-digital local exchange
companies in which the ANI system can not read or record the entire originating
telephone number. These calls are edited out because they do not allow SSA to track
the experience of individual callers, a condition necessary to the calculation of two of
SSA’s 800-number performance measures. After completing the edit checks, OTSO
counts and sorts the remaining call records according to various call disposition
categories and calculates the daily "5-minute" and "first attempt" performance
measures. OTSO also calculates the "5-minute" and "first attempt" performance
measures twice in a monthly process: once for the current month and again
cumulatively for the FY to date. OTSO maintains summary-level files of the daily
performance measure counts and access rates and deletes the original AT&T ANI
record.

Applying the automated processing routines used by SSA to calculate the "5-minute"
and "first-time" access measures, we replicated the reported FY 1999 measures.
However, we found that limitations in the AT&T file prevent accurately measuring the
"first attempt" and "5-minute" access rate performance measures. 3 Specifically, while
SSA has defined the access measures to be the experience of unique call attempts,
referred to as individual callers, telecommunications architecture limits the ability to
identify all individual callers. These limitations occur with calls made from certain PBX4
systems and from nonequal5 access areas.

3
   These data limitations continue to exist with MCI.

4
   PBX refers to a type of telephone equipment used in many commercial establishments that directs

outgoing calls.

5
   Nonequal access exchanges cannot report the originating number on the AT&T record, but rather report

it as an area code and seven zeroes. This prevents identification of an individual caller. AT&T and SSA

officials estimate the number of calls affected to be small and advised that they will be eliminated as

technology improves.



                                                   3
PBX Systems Prevent Identification of Individual Calls

Calls made from locations with a PBX system can be recorded in one of three ways on
the AT&T record. All outgoing calls can be assigned:

       •   one general number,

       •   random numbers, or

       •   the individual number from which the call was made.

The first two scenarios prevent the capturing and recording of a caller’s individual
extension, and thus the identification of an individual caller. Since SSA’s
measurements require identification of individual callers to track "first attempt" and
"5-minute" access, these limitations in the recording of originating numbers can affect
the reliability of the reported measures. As shown in Figure 1, the inability to identify all
individual callers could either overstate or understate actual reported performance.

                                           Figure 1

              Potential Effect of Calls from PBX-Based Telephone Systems

                             upon the Access Measurements


      Method of Call                              Potential Effect                 Measures
 Routing Through the PBX                                                           Affected

Single Lead Number:               �   Over reports the number of successful "5-minute"
Different calls from different        calls because a caller within 5-minutes access
telephone lines served by the         of a previously unsuccessful caller
PBX system are recorded as            could be classified as successful.
one unique number on the
AT&T file.                        �   Underreports the number of                 "first attempt"
                                      successful calls to the 800-number         access
                                      because one successful first attempt
                                      will prevent any subsequent call from
                                      the same number within a 24-hour
                                      period being classified successful.
Multiple Numbers:                 �   Can either over or underreport the         "5-minute" and
Different calls from the same         number of successful calls to the 800-     "first attempt"
telephone served by the PBX           number depending upon the number           access
system can be recorded as             of attempts made by callers before
different unique telephone            successfully reaching SSA.
numbers on the AT&T file.

As Figure 1 shows, the “5-minute” access rate can be overstated if a call is routed
through a single lead number because a caller who successfully accesses the number


                                              4
within five minutes of another caller’s unsuccessful access would be counted as a
successful call. At the same time, if calls are made from a location that assigns the
same number to all calls, the first caller from that location will be identified in order to
determine “first attempt” access, and subsequent callers from that location will not be
recognized as individual callers. Consequently, if the first caller successfully reaches
the 800-number on the first attempt, any other callers assigned that number for that day
will not be categorized as a successful “first attempt” caller. The effect of this would be
to understate the “first attempt” access rate.

As Figure 1 also shows, when calls are assigned random numbers, the effect could be
to inflate or deflate reported performance. For instance, a caller may unsuccessfully
access the 800-number on the first nine attempts, but place a successful call on the
tenth attempt 10 minutes later. If each attempt were assigned a different originating
number, the tenth call would be over reported as a successful “5 minute” access call.
Then, if a second caller successfully accessed the 800-number on the caller’s first
attempt, assuming no other calls for the day, the successful “first attempt” rate for the
day would be underreported. The understatement occurs since SSA would calculate
the “first attempt” rate as 2 successful first attempts out of 11 unique callers, or
18 percent, rather than correctly measuring 1 successful first attempt out of 2 unique
callers, or 50 percent.

SSA officials did not believe that such calls would materially affect the performance
measures, but neither SSA nor AT&T could estimate the extent to which calls originate
from PBX systems. Consequently, we could not determine the effect upon the
performance measure.

Nonequal Access Exchange Areas Prevent Identification of Individual Calls

Calls made from nonequal access exchanges are not identified on the ANI file as a
complete originating telephone number. Therefore, these calls cannot be associated
with an individual caller and are excluded from the access performance measure
calculations. While the source data does not permit identifying originating numbers or
individual callers to be included in the calculations of the access measures, these calls
do represent callers that are served. Consequently, excluding them could cause an
underreporting of actual performance. SSA staff estimated that these types of calls
represent about five percent of all calls. We were unable to determine the effect of
including these calls in the measurement calculation.

“Calls Handled” Calculation Errors Could Affect
Reliability of the Performance Measure

“Calls handled” represents a workload measure that is derived monthly through a series
of manual and computerized calculations using multiple data sources. We tested the
processing routines that produce the “calls handled” measure, and replicated the
process SSA used to report the FY 1999 measure. However, we found errors in the




                                             5
processing routine used to calculate the “calls handled” measure that could affect its

reliability.


The ANI file records all calls to the 800-number, and identifies whether the caller

selected either the automated or live agent menu, or terminated the call prior to

selecting an option. Callers choosing the automated menu are tracked daily through the

Automated Service Report system, and monthly through the Plasa Reports.6

Customers who choose the live agent menu are tracked through the Automated Call

Distributor system and these calls are processed daily in the Handled Report and

monthly in the FTS 2000 Usage Cost Reports. Multiple automated and manual

processes that use various data sources are used to develop calls handled by live

agents and in the automated menu system, which are combined to report the calls

handled measure. As shown in Figure 2, we found errors in these processing routines:


                                         Figure 2

           Effect of Processing Errors on “Calls Handled” Performance Measure


                Processing Error                                       Effect of
                                                                   the Processing
                                                                         Error
Calls received in the automated menu                     Overstates the “calls handled”
system as reported in the Plasa Report                   measure
include calls that encountered a busy signal.
Calls abandoned in the automated menu                    Understates the “calls handled”
system as reported in the Handled Report                 measure
reflect callers that may have selected more
than one option within the automated menu.
This inflated number is subtracted from
actual calls received on the Plasa Report.

We determined that the cumulative effect of the latter two errors understated the

FY 1999 “calls handled” measure by approximately 100,000 calls, or less than one

percent. While the effect of these processing errors appears to be minimal during the

period audited, the effect of the errors on future periods cannot be determined.


SSA LACKS SUFFICIENT DOCUMENTATION OF THE PERFORMANCE
MEASURE PROCESS
We found that SSA lacked sufficient documentation of the processes used to collect,
analyze, and report performance indicator data. Further, complete documentation
necessary to recreate the performance measure was not available. Office of
Management and Budget (OMB) Circular A-123, Management Accountability and

6
  The Plasa Report is generated directly from AT&T and gives SSA data on call volume from each of its
reporting sites on a daily, monthly, and quarterly basis. Information is provided by the hour and includes
originating calls, successful calls, and call duration.


                                                     6
Control, states that documentation for transactions, management controls, and other
significant events must be clear and readily available for examination. Consequently,
agencies should establish a clear methodology for verifying the underlying data and
retain the appropriate documentation to enable an audit of the methodology that
supports the performance measures.

SSA did not have a comprehensive process map documenting the flow of performance
measure data from the receipt of original, unedited 800-number data from an external
source, through SSA edit checks and sorts, to the final calculation and reporting of
performance measures. At our request, SSA documented the processes by which the
performance measure data is collected, analyzed, and reported. However,
documenting the process was not only time consuming, it also disclosed that the
rationale for the steps in the process was not always known or understood. These
processes are depicted in Appendices D and E.

We also found that two different offices within SSA develop 800-number performance
information. OTSO produces the GPRA performance measures, and OIM uses the
same call data to produce performance data for internal reports. OTSO and OIM
perform different edit checks to the data to develop their statistics, which could result in
inconsistent information. For instance, OIM deletes calls recorded as complete with a
zero call duration on the basis that they represent an illogical record. However, OTSO
includes these records in its performance measure calculations. We also found that
OTSO had not always accounted for all automated menu calls when developing the
“calls handled” measure. For instance, during the month of January 2000, over
60 percent of the calls were erroneously attributed to the live agent option rather than
the automated menu. While this did not affect the overall “calls handled” performance
measure, which relies upon the monthly Plasa Report, it did distort daily management
information on the distribution of 800-number workload between live agent and
automated menu options. Additionally, the number of calls attributed daily to the
automated menu is overstated because OTSO performs manual adjustments to
increase the number of calls received by certain submenu options rather than simply
reporting the number of calls. This has the effect of counting a call more than once.

We also found that OTSO erroneously calculates calls abandoned in the live agent
menu when reporting monthly data on the Commissioner's Tracking Report. The calls
abandoned in the live agent option is taken from the FTS 2000 Usage Cost Report,
which includes calls that are abandoned in the automated menu. Consequently, calls
abandoned in the live agent menu are overstated. We determined that calls abandoned
in the live agent menu were overstated by 298,333 calls, or 6 percent, in FY 1999.

After OTSO calculates the daily performance measures, the original data of individual
calls to the 800-number is deleted, and only summary counts are maintained for
developing subsequent year-to-date statistics. OIM maintains original call files for the
most recent 30 to 60-day period, after which previous files are deleted. Consequently, a
complete audit trail is not maintained to allow recalculation of the yearly performance




                                              7
measures. SSA staff did not know why the two units were producing similar
performance information, nor why different edit checks were applied.

WEAKNESSES EXIST IN ACCESS CONTROLS OVER PERFORMANCE
MEASURE PROCESSING
OMB Circular A-127, Financial Management Systems, requires that a system of internal
controls be established to ensure that data used to produce reports is reliable. We
found that controls over access to 800-number program files and report listings were
weak. SSA stores the files under a dollar sign user identification number that allows
unlimited access to the files and sufficient authority for the average user to modify or
delete key programs or reported measures without detection. While our field work did
not disclose that any unauthorized changes or deletions had occurred, we believe SSA
should restrict access to the files to reduce the risk of accidental modification or
deletion, and help ensure the validity and completeness of the performance measure.

PERFORMANCE MEASURES EMPHASIZE ACCESS RATHER THAN
SERVICE

Figure 3 shows that during FY 1999, SSA reported that 78.7 million calls were placed to
the 800-number, of which 6.9 million callers encountered a busy signal prior to reaching
the 800-number prompt. Of those making a selection, 13 million terminated the call
prior to being served, and 58.8 million completed their business.

                                        Figure 3

                        Disposition of Calls to the 800-Number


              Disposition of Calls                Total calls     Percent
                    FY 1999                        (million)
      Reached the 800-number                         78.7           100.0
      Encountered a busy signal                      6.9             8.8
      Discontinued subsequent to being               13.0           16.5
      connected to either the live agent or
      automated option
      Handled to completion                          58.8           74.7

The two access performance measures focus on whether the customer is connected to
one of the two menu options, which may or may not result in actually being served. A
call meets the performance measure if the caller chooses a live agent or the automated
menu, not whether business was conducted or even completed to the customer's
satisfaction. No consideration is given to how long the caller must wait to be given
information via the automated menu or to speak with a live agent, or whether the caller
subsequently hangs up prior to being served. The performance measure for “calls
handled,” attempts to measure service by only counting callers that actually complete
their business through either the automated or live agent option. However, it does not


                                              8
report on the extent of customer service, such as the length of time that a caller is on
hold prior to being served.

The February 1999 Office of Quality Assurance and Assessment’s (OQA) semiannual
800-Number Customer Survey7 (OQA Survey) found that 59 percent of callers who
selected a live agent were placed on hold, and that 9 percent of those hung up prior to
speaking to a live agent. While the caller is the one who opts to terminate a call prior to
completion, the reasons callers terminate a call are not known. Nevertheless, calls
terminated prior to completion may negatively impact caller satisfaction. OQA released
a report in August 2000 on how well the 800-number automated services met customer
needs. Limited information was obtained that showed automated service callers hang
up before the message was completed primarily because of a desire to speak with a
representative.

The OQA Survey also found that caller satisfaction is greatly affected by access and the
extent to which a caller’s issue is handled completely. The OQA Survey reported that
overall satisfaction declines as the access rating goes down, and that complete call
handling has a profound effect on the overall satisfaction rating. The Survey found that
98 percent of the callers who got through right away and whose call issue was handled
completely, either by an automated service or a representative, were satisfied with
service overall. However, the Survey further found that callers' satisfaction rating
dropped to less than 60 percent when callers remembered having to call more than
once and being unable to complete their business.

The September 1999 Social Security Advisory Board report, How the Social Security
Administration Can Improve Its Service to the Public, raised the question as to whether
the public regards the “5-minute” access rate as an acceptable level of service. The
report further suggested that performance measurement should emphasize the percent
of calls that conduct business, as well as the percent that achieve access.

CONCLUSIONS AND RECOMMENDATIONS
While we were able to replicate the measures reported by SSA to report on its
800-number performance, limitations in the data do not allow us to conclude as to
whether the measures reliably report the performance SSA intends to measure. SSA
attempts to measure the experience of each caller, however, SSA does not disclose
that data limitations prevent identification of an individual caller in certain scenarios.
The lack of formal documentation of the processes used to collect, analyze, and report
performance information does not comply with OMB guidance in Circular A-123.
Weaknesses in access controls applicable to the data processing used to report
performance do not ensure the integrity of the performance data. We believe that the
definitions used by SSA for its 800-number performance measures tend to emphasize
access, as opposed to service. To ensure greater compliance with GPRA reporting
requirements, we recommend that SSA:
7
  OQA surveys 800-number callers semiannually to assess the level of satisfaction based upon callers’
recollection of service received on the day calls were selected for survey.


                                                   9
1. 	 Disclose in the Accountability Report and other appropriate documents the data
     limitation that prevents identifying individual callers from PBXs and nonequal access
     exchange areas in the calculation of the access measures;

2. 	 Work with the new contractor for managing the 800-number to quantify the effect
     upon the access performance measures of the inability to identify individual callers;

3. 	 Revise the process for calculating calls handled in the automated menu system to
     exclude calls that receive a busy signal, and to reflect only individual calls, as
     opposed to options selected;

4. 	 Formally document the processes by which the 800-number performance
     measurements are derived;

5. 	 Ensure that controls exist to prevent unauthorized access to the 800-number
     performance measure data files;

6. 	 Consolidate responsibility for 800-number performance reporting within one office,
     and ensure that appropriate edit checks and processing routines are applied prior to
     performance measure calculation;

7. 	 Revise the process for calculating calls abandoned in automation to reflect individual
     calls; and

8. 	 Develop indicators to effectively measure the quality of service received by
     customers served by the 800-number that would more accurately reflect SSA’s
     performance goal of achieving world class service.

AGENCY COMMENTS
SSA agreed with five (recommendations 1, 4, 5, 6, and 8) of our eight
recommendations, and reported that action had already been taken as a result of the
transition to a new 800-number contractor to address two others (recommendations 3
and 7). In response to recommendation 2, “Work with the new contractor for managing
the 800-number to quantify the effect upon the access performance measures of the
inability to identify individual callers,” SSA advised that present technology does not
permit determining the effect, but that SSA will revisit the issue periodically.

OIG RESPONSE
We are pleased that SSA agreed with our recommendations, and has, or plans to,
implement all our suggested improvements. Regarding recommendation 2, “…to
quantify the effect upon the access performance measures of the inability to identify
individual callers,” we agree that SSA should periodically assess the extent to which
technology would allow identification of individual callers. Until such time as SSA’s



                                            10
technology is able to do so, SSA should disclose the inability to identify individual callers
when reporting the performance measure.

In responding to recommendation 3, "revise the process for calculating calls handled in
th-e automated menu system to exclude calls that receive a busy signal, and to reflect
only individual calls, as opposed to options selected," SSA stated that the reports
produced by the new BOO-number contractor used to calculate the performance
measures more accurately reflect the number of calls handled. These reports will
identify calls as opposed to options selected. Additionally, the revised method of
calculating calls handled will exclude calls that encountered a busy signal, which were
previously included .

SSA noted that the planned OQA survey on 800-number callers involved only callers
that selected the automated service, and that the report was issued in August 2000.
Our report has been clarified to note this.

                                                      /




                                              11
                              Appendices
APPENDIX A - Scope and Methodology

APPENDIX B - Acronyms

APPENDIX C - Agency Comments

APPENDIX D - Flowchart of the 800-Number First-Attempt and 5-Minute
             Access Performance Measurements

APPENDIX E- Flowchart of the 800-Number Calls Handled Performance Measure

APPENDIX F- OIG Contacts and Staff Acknowledgements
                                                                                        Appendix A

      Scope and Methodology
      As part of the Office of the Inspector General’s (OIG) on-going role to verify and
      validate the Social Security Administration’s (SSA) performance measure reporting,
      we conducted this audit to assess the reliability of the data used to report the
      following SSA 800-number performance measurements:

      •	 percent of callers who successfully access the 800-number within 5-minutes of
         their first call;

      •   percent of callers who get through to the 800-number on their "first attempt", and

      •   number of 800-number "calls handled".

      To meet our objectives, we documented, based upon analysis of SSA documents
      and discussion with officials from the Office of Telephone Services (OTS) and the
      Office of Telecommunications and Systems Operations (OTSO), the infrastructure of
      the 800-number system, definitions of the 800-number measurements, and the
      processes for capturing, analyzing, and reporting the data used in the
      measurements. To obtain an understanding of the 800-number call routing process,
      we conducted a walk-through of OTS’ Voice Network Control Center, which is
      responsible for overseeing and routing call traffic. To identify the key internal
      controls in the data collection and reporting process, we flow-charted the process
      that collects, analyzes, and reports 800-number data from receipt of AT&T
      Automatic Number Identification (ANI) data to the reporting of the performance
      measurements. We also reviewed OIG, the U.S. General Accounting Office, and the
      Social Security Advisory Board reviews of SSA and other 800-number providers to
      document any previously reported weaknesses in 800-number operations and
      performance reporting.

      We reviewed and confirmed the program language used by SSA to perform the edit
      checks on the AT&T ANI file, and calculations of the performance measure access
      rates. We were unable to identify any prior audits of the AT&T ANI.1 To confirm the
      recording of originating telephone numbers on the AT&T ANI record, we placed
      300 calls on one day from 20 different numbers around the country. We then traced
      these calls to that day’s ANI record and confirmed that the call date, call time,
      originating number, and call disposition had been properly recorded.

      Because OTSO does not retain the daily detail call records, but rather maintains
      summary level data of its daily processing, we performed tests of OTSO’s
      processing in order to rely upon its summary files. We entered “dummy” records into
1
    AT&T is not required to provide audits to establish the reliability of the 800-number ANI data.


                                                       A-1
each of the programs on 2 days to ensure that these records were processed
correctly. Using data from the AT&T ANI file, we performed parallel simulation of the
control tests and the edit checks applied in the daily access rate calculation
programs for the period January 1, 2000 through January 31, 2000, and we
replicated the daily measures. These tests provided assurance for us to rely upon
the functioning of the edit routines and access rate calculations. After establishing
the reliability of OTSO’s daily record calculations, we recalculated the “first attempt”
and “5-minute” access rates for Fiscal Year (FY) 1999 using OTSO’s files.

We reviewed and confirmed the program language used by SSA to perform both the
daily and the monthly calculation of the calls handled workload. This measure
represents the monthly sum of calls handled at both the automated and live agent
options. We performed parallel simulation of the automated and manual edit checks
and calculations applied to derive the daily consolidated calls handled number for
January 2000. We traced the monthly calls handled number for FY 1999 to the
source documents. To obtain assurance as to the reasonableness of the breakout
between calls handled in each option, we reconciled calls offered in both live agent
and automated options to the number of ANI complete calls per the handled report.

Our work was conducted at the OIG New York Field Office and SSA Headquarters in
Baltimore, Maryland from November 1999 through October 2000. The entities
audited were OTS and OTSO. We conducted our audit in accordance with generally
accepted government auditing standards, as applicable to a performance audit.




                                        A-2
                                                      Appendix B


Acronyms
ACD    Automatic Call Distributor

ANI    Automatic Number Identification

APP    Annual Performance Plan

FY     Fiscal Year

GPRA   Government Performance and Results Act

OIG    Office of the Inspector General

OIM    Office of Information Management

OMB    Office of Management and Budget

OQA    Office of Quality Assurance and Performance Assessment

OTS    Office of Telephone Services

OTSO   Office of Telecommunications and Systems Operations

SSA    Social Security Administration

TSC    Teleservice Center

                   Appendix C


Agency Comments

                                                        ~" SEC-V
                                                   .vV-­       ~-"
                                                     ~~.?.
                                                     '/1'usA'\\:
                                                     ~ IIIIII1~~
                                                       ...NISTV

                                        SOCIAL           SECURITY


MEMORANDUM                                                                      29300-24-573



Date:      August   29,   2001                                                   Refer To: SlJ-3


To



From:




Subject:   Office of the Inspector General (OIG) Draft Report, "Perfonnance Measure Review: Reliability
           of the Data Used to Report 800-Number Perfonnance" (A-O2-00-I0019)-INFORMATION


           Our commentsto the subject draft report were releasedto you on August 3, 200I. Subsequently,
           we received clarifying information from your staff concerning recommendation 5. Therefore,the
           attachedcommentsinclude a revision to our commentson that recommendation.

           Pleaselet us know if we may be of further assistance.Staff questionsmay be referred to
           Dan Sweeneyon extension 51957.

           Attachment
           SSA Comments
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA USED TO
REPORT 800-NUMBER PERFORMANCE” (A-02-00-10019)

Recommendation 1

Disclose in the Accountability Report and other appropriate documents the data limitation that
prevents identifying individual callers from PBXs and nonequal access exchange areas in the
calculation of the access measures.

Comment

We agree and will include the recommended disclosure in future reports.

Recommendation 2

Work with the new contractor for managing the 800-number to quantify the effect upon the
access performance measures of the inability to identify individual callers.

Comment

The suggested technology does not presently exist to put this recommendation in place.
However, we will keep abreast of available technology and will revisit the issue periodically to
determine if technology is available that could assist us in identifying the origin of all calls to the
800 number.

Recommendation 3

Revise the process for calculating calls handled in the automated menu system to exclude calls
that receive a busy signal, and to reflect only individual calls, as opposed to options selected.

Comment

This recommendation was addressed with the transition from carrier AT&T to WorldCom. The
revised Automated Service Report (ASR) counts individual calls to accurately reflect the
Handled Calls count. It should be noted that busy calls have never been a part of the automated
system; calls that encounter a busy signal do not enter the automated process.

Recommendation 4

Formally document the processes by which the 800-number performance measurements are
derived.




                                                C-1
Comment

We concur. The Division of Integrated Telecommunications Management (DITM) will write
formal documentation after implementation of the Call Center Network Solution. The target date
for completing the performance measurement documentation is late October 2001.

Recommendation 5

Ensure that controls exist to prevent unauthorized access to the 800-number performance
measure data files.

Comment

We concur. We will change the file names for the performance measure data set names from
dollar sign names to Top Secret protected “AIS” data set names. The data set name change will
ensure that the data sets cannot be accessed by any real time or batch request that does not have
the correct Top Secret Profile. We expect to institute the new data set names with the first daily
run of fiscal year 2002.

Recommendation 6

Consolidate responsibility for 800-number performance reporting within one office, and ensure
that appropriate edit checks and processing routines are applied prior to performance measure
calculation.

Comment

We agree. The Office of Systems will assess the appropriate placement of the responsibility for
800 number performance reporting. The responsibility for reporting will be in place in one
office by the end of the year.

Recommendation 7

Revise the process for calculating calls abandoned in automation to reflect individual calls.

Comment

As with recommendation 3 above, this recommendation was addressed with the transition to our
new carrier, WorldCom. DITM no longer makes manual calculations in the automated
abandonment count, as was the case with AT&T. All calls are counted as an individual call in
the ASR Primary Report, while additional selections are counted in the ASR Subsequent Report.
Each call is counted once.




                                              C-2
Recommendation 8

Develop indicators to effectively measure the quality of service received by customers served by
the 800-number that would more accurately reflect SSA's performance goal of achieving world
class service.

Comment

We agree that indicators should be developed to more accurately reflect our performance goal of
providing world class service. The Office of Operations (DCO) is in the process of developing
new performance metrics that DCO expects to have in place at the beginning of fiscal year 2003.
These new metrics will replace the current performance indicators (i.e., the 5-minute and first
time access goals) and will focus on our responsiveness to answering all calls.

Changes to our automated services based on customer input and our own analysis is a fluid
process, and we are constantly looking for ways to improve customer access and service over the
national 800 number. DCO has conducted focus groups to obtain input on the service provided.
On an ongoing basis, DCO and the Office of Quality Assurance and Performance Assessment
(OQA) assess the level of satisfaction with service provided over the national 800 number.
When appropriate, changes are made to address issues/concerns raised by our callers. For
example, we are in the process of making several major enhancements to the national 800
number automated service scripts.

•	 On April 13, 2001, Phase I was implemented to separate touch-tone callers from voice
   response callers and provide distinct touch-tone or voice response call paths. Callers will
   hear an English and Spanish touch-tone screening prompt during the main greeting. This
   change will help ensure that callers reach the option selected.

•	 Phase II is scheduled to be implemented by the end of July 2001. This phase will restructure
   the current 800 number menus to make them user-friendlier for our callers and add a new
   automated option to provide information about the Password/Password Request Code
   applications currently in development. The enhancements planned will provide callers with
   the ability to hear the list of options or message again, plus the option to return to the main
   menu. The return to main menu feature will provide callers who complete an automated
   service application with the opportunity to return to the main menu, where they can select
   another automated service or, during business hours, choose to speak with an agent.

•	 Phase III is scheduled to be implemented on October 1, 2001. During this phase, we will add
   several new Password/Password Request Code automated service options which will allow
   callers to request, change, replace or block their password, hear informational messages
   about the password process and obtain monthly benefit amount information.




                                             C-3
                                    Appendix D

Flowchart of the 800-Number First Attempt
                     and
“5-Minute” Access Performance Measurements
Flow Chart of 800 Number First Attempt and 5-Minute Performance Measurements




                                                                                       Monthly and at year-end, OTSO
                                                                                        SAS program, CMON2, is run
                                              Daily, OTSO applies SAS-based           against output file to calculate the
                                               programs to perform edit check         5-minute performance mesure for
                                            routines and calculate the daily first            fiscal year to date.
             Daily, OTSO
                                               attempt and five minute access
            accesses from
                                            rates, which are produced as output
        mainframe unedited
                                                 files. The daily performance
        AT&T ANI file of calls
                                             measures are sent to the Office of         Monthly and at year-end OTSO
         made to SSA's 800
                                             Telephone Services and posted on           SAS program, FIRST2D, is run
        number and uploads
                                            the 800 number daily MAP report on        against output file to calculate the
         file to mainframe
                                                     SSA's intranet website          first attempt performance measure
                                                                                              for fiscal year to date.




   Monthly, First attempt and
5-minute performance measures                 First attempt and
are posted for the current month            5-minute performance
and for the fiscal year to date in         measures are reported in
 the Commissioner'sT racking                    SSA's Annual
              Report                         Accountability Report
                                   Appendix E

Flowchart for the Processing of 800-Number
Calls Handled Performance Measure
    FLOW CHART OF THE PROCESSING OF THE 800-NUMBER "CALLS HANDLED"
                                     PERFORMANCE MEASURE



                                                                                                                                           Daily, OTSO generates
          Daily, OTSO receives 23 ACD of calls                                             Daily, OTSO runs SAS-based
                                                           Daily, OTSO                                                                     a file of combined ACD
          received and calls abandonedby live                                           programs against ACD files to create
                                                             performs                                                                       and ASR data of calls
                   agents at 23 TSC's.                                                    output files of calls offered, calls
                                                          manual edits on                                                                       offered and calls
                                                                                          abaondoned in queue, and calls
                                                           the ACD files                                                                           abandoned.
                                                                                                  handled at TSCs.




                                                                                                                                  OTSO runs a daily SAS-based program
          Daily, OTSO receives Automated           OTSO performs manual                     OTSO manually inputs revised          against combined ASR and ACD file to
         Services Report (ASR) files of calls     calculations to revise calls              ASR call count data into a daily      derive a daily calls handled count that is
         offered, completed, and abandoned       offered and calls abandoned                     Handled program.                   posted on the 800-number daily MAP
             in automated menu options.                 in automation.                                                             report on SSA;s intranet website. This
                                                                                                                                  SAS program also stores the daily calls
                                                                                                                                 offered and abandoned counts for monthly
                                                                                                                                                  processing



                                                                     Teleservice Centers:
                                                          Monthly, OTSO runs SAS-based program
                                                            that calculates calls handled and calls
                                                          abandoned at TSCs, which is produced in                                          Calls handled counts at
                                                                the FTS 2000 Useage Report.                                              Teleservice Centers and in
                                                                                                                                          automation are manually
     Monthly, various processes are
                                                                                                                                               inputted into the
performed to produce statistics reported
                                                                                                                                          Commissioner's Monthly
    in the Commissioner's Tracking
                                                                                                                                              Tracking Report.
                Report..

                                                                        Automation::
                                                   Monthly, OTSO derives calls handled by substracting
                                                 calls abandoned in automation as reported in the Handled
                                                  Report, from the calls offered, as reported in the Plasa                                Calls handled counts are
                                                                          Report.                                                         reported in SSA's Annual
                                                                                                                                            Accountability Report
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments

OIG Contacts
      Frederick C. Nordhoff, Director Financial Management and Performance
      Monitoring Audit Division (410) 966-6676

      Timothy Nee, Deputy Director (212) 264-5295

Acknowledgments

In addition to those named above:

      John P. Harrison, Senior Auditor

      Jeffrey Shapiro, Senior Analyst

      Carol Ann Frost, EDP Auditor

      Annette DeRito, Program Analyst


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-00-10019.
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
